                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: I05080040                                                                          Page 1 of 1



                 This fileawas initiated as part of an Office of Inspector General investigative proactive
          review of international collaborative projects. In previous cases OIG had found that selected PIS
          had reallocated participant support funds dedicated for travel to or from the foreign collaborator's
          location for other purposes. This reallocation had occurred without the required prior NSF
          approval.

                  In this case, our review of the institution's' financial records for the award2raised two
          questions. First, regarding the institution's management of participant support costs, it did not
          appear that the institution was separately tracking participant support charges to ensure that those
          charges were allowable and in conformance with NSF's expectations. The institution had told us
          it did not maintain a separate line item for these charges. Second, there were specific charges to
          the award for which OIG required additional information.

                   The institution clarified that it maintained a separate account for participant support
          charges rather than a line item within the award account. It feels this system gives it more
          control with less duplication of effort over this specialized budget category. The institution also
          clarified the charges that were in question and noted that it had inappropriately charged the award
          for airline flights that were not in conformance with the Fly America Act. It offered to and did
          reimburse NSF for those flight^.^

                     All issues related to this proactive review have been resolved. Accordingly, this case is
          closed.




NSF OIG Form 2 ( 1 1/02)
